<html>
<title> - VEHICLE-TO-VEHICLE COMMUNICATIONS AND CONNECTED ROADWAYS OF THE FUTURE</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]










 VEHICLE-TO-VEHICLE COMMUNICATIONS AND CONNECTED ROADWAYS OF THE FUTURE

=======================================================================

                                HEARING

                               BEFORE THE

           SUBCOMMITTEE ON COMMERCE, MANUFACTURING, AND TRADE

                                 OF THE

                    COMMITTEE ON ENERGY AND COMMERCE
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             JUNE 25, 2015

                               __________

                           Serial No. 114-60


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]






      Printed for the use of the Committee on Energy and Commerce
                        energycommerce.house.gov
                                   ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

97-692 PDF                     WASHINGTON : 2016 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001
                          

























                    COMMITTEE ON ENERGY AND COMMERCE

                          FRED UPTON, Michigan
                                 Chairman

JOE BARTON, Texas                    FRANK PALLONE, Jr., New Jersey
  Chairman Emeritus                    Ranking Member
ED WHITFIELD, Kentucky               BOBBY L. RUSH, Illinois
JOHN SHIMKUS, Illinois               ANNA G. ESHOO, California
JOSEPH R. PITTS, Pennsylvania        ELIOT L. ENGEL, New York
GREG WALDEN, Oregon                  GENE GREEN, Texas
TIM MURPHY, Pennsylvania             DIANA DeGETTE, Colorado
MICHAEL C. BURGESS, Texas            LOIS CAPPS, California
MARSHA BLACKBURN, Tennessee          MICHAEL F. DOYLE, Pennsylvania
  Vice Chairman                      JANICE D. SCHAKOWSKY, Illinois
STEVE SCALISE, Louisiana             G.K. BUTTERFIELD, North Carolina
ROBERT E. LATTA, Ohio                DORIS O. MATSUI, California
CATHY McMORRIS RODGERS, Washington   KATHY CASTOR, Florida
GREGG HARPER, Mississippi            JOHN P. SARBANES, Maryland
LEONARD LANCE, New Jersey            JERRY McNERNEY, California
BRETT GUTHRIE, Kentucky              PETER WELCH, Vermont
PETE OLSON, Texas                    BEN RAY LUJAN, New Mexico
DAVID B. McKINLEY, West Virginia     PAUL TONKO, New York
MIKE POMPEO, Kansas                  JOHN A. YARMUTH, Kentucky
ADAM KINZINGER, Illinois             YVETTE D. CLARKE, New York
H. MORGAN GRIFFITH, Virginia         DAVID LOEBSACK, Iowa
GUS M. BILIRAKIS, Florida            KURT SCHRADER, Oregon
BILL JOHNSON, Ohio                   JOSEPH P. KENNEDY, III, 
BILLY LONG, Missouri                 Massachusetts
RENEE L. ELLMERS, North Carolina     TONY CARDENAS, California
LARRY BUCSHON, Indiana
BILL FLORES, Texas
SUSAN W. BROOKS, Indiana
MARKWAYNE MULLIN, Oklahoma
RICHARD HUDSON, North Carolina
CHRIS COLLINS, New York
KEVIN CRAMER, North Dakota

                                 _____

           Subcommittee on Commerce, Manufacturing, and Trade

                       MICHAEL C. BURGESS, Texas
                                 Chairman
                                     JANICE D. SCHAKOWSKY, Illinois
LEONARD LANCE, New Jersey              Ranking Member
  Vice Chairman                      YVETTE D. CLARKE, New York
MARSHA BLACKBURN, Tennessee          JOSEPH P. KENNEDY, III, 
GREGG HARPER, Mississippi                Massachusetts
BRETT GUTHRIE, Kentucky              TONY CARDENAS, California
PETE OLSON, Texas                    BOBBY L. RUSH, Illinois
MIKE POMPEO, Kansas                  G.K. BUTTERFIELD, North Carolina
ADAM KINZINGER, Illinois             PETER WELCH, Vermont
GUS M. BILIRAKIS, Florida            FRANK PALLONE, Jr., New Jersey (ex 
SUSAN W. BROOKS, Indiana                 officio)
MARKWAYNE MULLIN, Oklahoma
FRED UPTON, Michigan (ex officio)

                                  (ii)
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                             C O N T E N T S

                              ----------                              
                                                                   Page
Hon. Michael C. Burgess, a Representative in Congress from the 
  State of Texas, opening statement..............................     1
    Prepared statement...........................................     3
Hon. Janice D. Schakowsky, a Representative in Congress from the 
  State of Illinois, opening statement...........................     4
    Prepared statement...........................................     5
Hon. G.K. Butterfield, a Representative in Congress from the 
  State of North Carolina, opening statement.....................     6
    Prepared statement...........................................     6
Hon. Fred Upton, a Representative in Congress from the State of 
  Michigan, prepared statement...................................     7
Hon. Frank Pallone, Jr., a Representative in Congress from the 
  State of New Jersey, prepared statement........................     7

                               Witnesses

Nathaniel Beuse, Associate Administrator, Vehicle Safety 
  Research, National Highway Traffic Safety Administration.......     9
    Prepared statement...........................................    12
Peter F. Sweatman, Ph.D., Director, University of Michigan 
  Transportation Research Institute..............................    18
    Prepared statement...........................................    20
Harry Lightsey, Executive Director, Global Connected Customer 
  Experience, General Motors.....................................    29
    Prepared statement...........................................    30
David St. Amant, President and Chief Operating Officer, Econolite 
  Group, Inc.....................................................    35
    Prepared statement...........................................    37
Barry Einsig, Global Transportation Executive, Cisco Systems, 
  Inc............................................................    45
    Prepared statement...........................................    47
 
 VEHICLE-TO-VEHICLE COMMUNICATIONS AND CONNECTED ROADWAYS OF THE FUTURE

                              ----------                              


                        THURSDAY, JUNE 25, 2015

                  House of Representatives,
Subcommittee on Commerce, Manufacturing, and Trade,
                          Committee on Energy and Commerce,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 10:03 a.m., in 
room 2123 of the Rayburn House Office Building, Hon. Michael 
Burgess (chairman of the subcommittee) presiding.
    Members present: Representatives Burgess, Lance, Guthrie, 
Olson, Bilirakis, Brooks, Mullin, Upton (ex officio), 
Schakowsky, Kennedy, Cardenas, Butterfield, Welch, and Pallone 
(ex officio).
    Also present: Representative Barton.
    Staff present: Leighton Brown, Press Assistant; Andy 
Duberstein, Deputy Press Secretary; Graham Dufault, Counsel, 
Commerce, Manufacturing, and Trade; Melissa Froelich, Counsel, 
Commerce, Manufacturing, and Trade; Kirby Howard, Legislative 
Clerk; Paul Nagle, Chief Counsel, Commerce, Manufacturing, and 
Trade; John Ohly, Professional Staff Member, Oversight and 
Investigations; Olivia Trusty, Professional Staff Member, 
Commerce, Manufacturing, and Trade; Michelle Ash, Democratic 
Chief Counsel, Commerce, Manufacturing, and Trade; Christine 
Brennan, Democratic Press Secretary; Elisa Goldman, Democratic 
Counsel; Meredith Jones, Democratic Director of Communications, 
Outreach, and Member Services; Adam Lowenstein, Democratic 
Policy Analyst; Timothy Robinson, Democratic Chief Counsel; and 
Ryan Skukowski, Democratic Policy Analyst.
    Mr. Burgess. Very well. The Subcommittee on Commerce, 
Manufacturing, and Trade will now come to order. Recognize 
myself for 5 minutes for the purpose of an opening statement.
    And I do want to--Mr. Guthrie, you too.

OPENING STATEMENT OF HON. MICHAEL C. BURGESS, A REPRESENTATIVE 
              IN CONGRESS FROM THE STATE OF TEXAS

    I do want to welcome everyone here this morning to discuss 
vehicle to vehicle communications. It is an innovative 
technology that is advancing vehicle safety, and has the 
potential to transform the future of our Nation's roadways. 
Recently this subcommittee held a hearing on the Internet of 
things, and the growing digital economy. During that hearing, 
we broadly examined ways in which different markets, different 
industries are using the Internet, how they are using wireless 
connections and network sensors to create products that gather 
information in real time to predict circumstances, prevent 
problems, and create opportunities. Vehicle to vehicle 
communications technology is a manifestation of that digital 
phenomenon. The ability of cars to communicate with one 
another, identifying their location, their speed, their brake 
patterns, their--and other positioning data, and share that 
information with other vehicles and drivers. This creates a 
transportation system in which crashes are avoided, mobility is 
improved, traffic congestion is avoided, and most importantly, 
lives may be saved. Given the life-saving benefits alone, I am 
very anxious to see if this technology takes shape and supports 
our country's efforts to build a safer and more secure 
transportation system. With over 32,000 motor vehicle accident 
deaths a year, vehicle to vehicle communications promises to 
significantly reduce those fatalities, and further harmonize 
roadway activity.
    It all sounds great, but the only way this saves lives is 
to make it real. I am looking forward to examining how vehicle 
to vehicle technology will work on today's roads, at a time 
when we face an aging vehicle fleet, where many cars are not 
equipped with the latest in groundbreaking technology, and 
where Americans, still facing an uncertain economic future, 
continue to hold off on buying big ticket items. We must 
understand how this technology will be accessible and available 
to everyone, and, in fact, accepted by everyone.
    In addition to understanding how we will make vehicle to 
vehicle communications a reality, I do look forward to 
discussing how to maximize vehicle to vehicle's driver and 
vehicle safety benefits. We need to understand the costs and 
the expenses associated with devices, and what will be required 
to maintain that communications network. Other considerations 
are also necessary, including how current roadway 
infrastructure will impact the implementation of this 
technology, and what infrastructure is needed to support V2V, 
and the process for developing performance and safety 
standards, how the technology will be compatible and 
interoperable among the entire vehicle fleet, and how the 
technology will impact driver distraction and disruption, what 
kind of driver education is needed to operate vehicles equipped 
with this technology. These and many other factors will need to 
be considered as we move forward in this technologically 
advanced transportation era.
    As with all network connected products in our day and age, 
protecting personal information, and ensuring that the 
appropriate safeguards are in place to guarantee vehicle 
security will be an essential part of fully realizing vehicle 
to vehicle communications, and its economic and public safety 
benefits. In our examination of privacy and security issues, it 
is important that we understand what kinds of information are 
collected from vehicle systems to support this technology, and 
what other safety applications, and what kind of information 
can be shared between vehicles. In addition, we must understand 
the security of those connections, and how it will be impacted 
with aftermarket devices, applications, and services that are 
brought into vehicles.
    Last month the National Highway Traffic Safety 
Administration announced that it was taking steps to accelerate 
road safety innovation, including moving ahead with its 
proposed timetable of requiring vehicle to vehicle devices in 
most new vehicles. I have said before, I am anxious to see this 
technology implemented on our roadways, and to begin 
demonstrating the life-saving benefits. However, we must make 
certain that the technology is ready, and that the 
implementation is done right. We must ensure that the 
appropriate level of expertise is available to oversee the 
entirety of the vehicle to vehicle system so that it functions 
and operates properly, and can speedily remedy any system 
failures without disruption. As we all know, lives will depend 
upon that. And I also want to parenthetically add that I am the 
chairman of the House Motorcycle Caucus, and I do see value in 
being aware of other occupants on the road, even if those other 
occupants are seemingly small and insignificant. Big trouble 
can result if you violate laws of physics.
    And, finally, I do want to note that there are multiple 
facets of vehicle to vehicle communications, and the committee 
as a whole, through its various subcommittees, is examining all 
of them. This hearing, however, is focused on what the 
technology could mean for safety, and what industry and the 
National Highway Traffic Safety Administration need to do to 
bring the technology safely into the marketplace. I want to 
thank in advance the witnesses for their testimony, and look 
forward to an engaging discussion on this very important topic.
    [The prepared statement of Mr. Burgess follows:]

             Prepared statement of Hon. Michael C. Burgess

    I want to welcome everyone to our hearing today as we take 
an opportunity to discuss vehicle-to-vehicle communications: an 
innovative technology that is advancing vehicle safety and has 
the potential to transform the future of our Nation's roadways.
    Recently, this subcommittee held a hearing on the Internet 
of Things and the growing digital economy. During that hearing, 
we broadly examined ways in which different markets and 
industries are using the Internet, wireless connections, and 
networked sensors to create products that gather information in 
realtime to predict circumstances, prevent problems, and create 
opportunities.
    Vehicle-to-vehicle communications technology is a 
manifestation of that digital phenomenon. The ability of cars 
to ``talk'' to one another--identifying their location, speed, 
brake status and other positioning data--and share that 
information with other vehicles and drivers, creates a 
transportation system in which crashes are avoided, mobility is 
improved, traffic congestion is avoided and, most importantly, 
lives are saved.
    Given the life-saving benefits alone, I am eager to see 
this technology take shape and support our country's efforts to 
build a safer and more secure transportation system. With over 
30,000 motor vehicle traffic deaths a year, V2V promises to 
significantly reduce those fatalities and further harmonize 
roadway activity.
    It sounds great. But the only way to save lives is to make 
it real. I look forward to examining how V2V will work on 
today's roads. At a time when we face an aging vehicle fleet 
where many cars are not equipped with the latest groundbreaking 
technology and where Americans, still facing an uncertain 
economic future, continue to hold off on buying big-ticket 
items, we must understand how this technology will be 
accessible and available to everyone, and accepted by everyone.
    In addition to understanding how we will make V2V a 
reality, I look forward to discussing how to maximize V2V's 
driver and vehicle safety benefits. We need to understand the 
costs and expenses associated with V2V devices and what will be 
required to maintain the V2V communications network. Other 
considerations are also necessary, including: how current 
roadway infrastructure will impact the implementation of V2V 
and what infrastructure is needed to support V2V; the process 
for developing V2V performance and safety standards; how the 
technology will be compatible and interoperable among the 
entire vehicle fleet; how V2Vwill impact driver distraction and 
disruption; and what kind of driver education is needed to 
operate vehicles equipped with this technology. These and many 
other factors will need to be considered as we move forward 
into this technologically advanced transportation era.
    As with all networked-connected products in this day and 
age, protecting personal information and ensuring that the 
appropriate safeguards are in place to guarantee vehicle 
security will be an essential part of fully realizing V2V and 
its economic and public safety benefits. In our examination of 
privacy and security issues, it is important that we understand 
what kinds of information is collected from vehicle systems to 
support V2V and other safety applications and what kinds of 
information is shared between vehicles. In addition, we must 
address the security of those connections and how they will be 
impacted when aftermarket devices, applications, and services 
are brought into vehicles.
    Last month, NHTSA announced that it was taking steps to 
accelerate road-safety innovation, including moving ahead of 
its proposed timetable requiring V2V devices in new vehicles. 
As I said before, I am eager to see this technology implemented 
on our roadways and begin demonstrating its life-saving 
benefits. However, we must make sure the technology is ready 
and the implementation is done right. We must ensure that the 
appropriate level of expertise is available to oversee the 
entirety of the V2V system so that it functions and operates 
properly, and can speedily remedy any system failures without 
disruption. As we all know, lives will depend on it.
    Finally, I want to note that there are multiple facets of 
vehicle-to-vehicle communications and the committee as a whole 
through its various subcommittees is examining all of them. 
This hearing, however, is focused on what the technology could 
mean for safety, and what industry and NHTSA need to do to 
bring the technology safely into the marketplace.

    Mr. Burgess. The Chair recognizes the subcommittee ranking 
member, Ms. Schakowsky, for 5 minutes for an opening statement.

       OPENING STATEMENT OF HON. JANICE D. SCHAKOWSKY, A 
     REPRESENTATIVE IN CONGRESS FROM THE STATE OF ILLINOIS

    Ms. Schakowsky. Thank you, Mr. Chairman. Auto safety has 
been a particular focus of mine for years, and so I really look 
forward to hearing from our witnesses on this developing safety 
feature. More than two million Americans were injured in car 
crashes last year, with more than 30,000 deaths. Those 
accidents and lost lives are tragic, but there have been 
significant auto safety improvements made since 1979, when a 
record 51,000 auto-related fatalities were recorded. Safety 
technologies like seat belts, anti-lock brakes, rear 
visibility, which I was very involved in passing, though not 
implemented until--full until 2018, and airbags, despite the 
Takata recall, have significantly improved auto safety since 
vehicle deaths reached their peak almost 4 years ago. In order 
to continue that progress, we must enhance existing safety 
features, while at the same time considering new and innovative 
technologies.
    Dedicated short range radio communication, DSRC, seems with 
technology come new acronyms, which enable vehicle to vehicle 
technologies, have been researched for 15 years, and it shows 
serious promise in further reducing traffic accidents. V2V, as 
well as vehicle to infrastructure, V2I, allows for early 
detection of traffic risks, and provide advance warning to 
drivers in order to avoid accidents. Whether it is ensure 
drivers can make safe left turns across traffic, not knocking 
over our chairman on his motorcycle, knowing when a driver can 
safely pass another car on the road, or minimizing traffic 
congestion, these technologies have tremendous real world 
benefits. It has been estimated that DSRC technology could 
prevent as many as four out of five accidents. Let--I want to 
hear what you think about that. I know firsthand how beneficial 
this technology could be--passenger in a little scrape that 
probably would have been prevented by V2V technology, with a 
bus, by the way.
    However, there are potential technical, privacy, and 
security vulnerabilities associated with DSRC technology. This 
technology could be interrupted by other communications 
traveling over the same spectrum band. We must ensure that 
geolocation information and driving habits are not able to be 
collected by auto manufacturers or subcontractors and used for 
purposes other than vehicle safety. Even more concerning is the 
vulnerability of advanced technologies in cars to remote 
access, which could cause vehicles to be breached and 
overtaken. Each of these threats needs to be fully vetted, and 
safeguards must be implemented to prevent them from occurring.
    Cars are already being manufactured with DSRC technology. 
As that technology continues to advance and is incorporated 
into more and more vehicles and infrastructure, we must 
establish rules of the road to maximize benefits while 
minimizing risks. NHTSA is working to develop standards and 
guidance to maximize V2V and V2I benefits, and I look forward 
to learning more about the rules--did you have something you 
wanted me to do? OK. More about the agency plans to advance and 
meet that objective.
    [The prepared statement of Ms. Schakowsky follows:]

            Prepared statement of Hon. Janice D. Schakowsky

    Thank you, Mr. Chairman, for holding today's hearing on 
vehicle-to-vehicle (V2V) technology. I look forward to hearing 
from our witnesses on this developing safety feature.
    More than 2 million Americans were injured in car crashes 
last year, with more than 30,000 deaths. Those accidents and 
lost lives are tragic, but there have been significant auto 
safety improvements made since 1979, when a record 51,000 auto-
related fatalities were recorded.
    Safety technologies like seatbelts, anti-lock brakes, and 
airbags--despite the Takata recall--have significantly improved 
auto safety since vehicle deaths reached their peak almost 40 
years ago.
    In order to continue that progress, we must enhance 
existing safety features while at the same time considering new 
and innovative technologies. Dedicated short-range radio 
communications (DSRC)--which enable V2V- has been researched 
for 15 years, and it shows serious promise in further reducing 
traffic accidents.
    V2V, as well as vehicle-to-infrastructure (V2I) allow for 
early detection of traffic risks and provide advanced warning 
to drivers in order to avoid accidents. Whether it's ensuring 
drivers can make safe left turns across traffic, knowing when a 
driver can safely pass another car on the road, or minimizing 
traffic congestion, these technologies have tremendous real-
world benefits. It has been estimated that DSRC technology 
could prevent as many as 4 out of 5 accidents. I know first-
hand how beneficial this technology could be: just the other 
day, I was a passenger in a little scrape that probably would 
have been prevented with V2V technology.
    However, there are potential technical, privacy and 
security vulnerabilities associated with DSRC technology. DSRC 
technology could be interrupted by other communications 
traveling over the same spectrum band. We must ensure that 
geolocation information and driving habits are not able to be 
collected by auto manufacturers or subcontractors and used for 
purposes unrelated to vehicle safety. Even more concerning is 
the vulnerability of advanced technologies in cars to remote 
access, which could cause vehicles to be breached and 
overtaken. Each of these threats needs to be fully vetted and 
safeguards must be implemented to prevent them from occurring.
    Cars are already being manufactured with DSRC technology. 
As that technology continues to advance and is incorporated 
into more and more vehicles and infrastructure, we must 
establish rules of the road to maximize benefits while 
minimizing risks. NHTSA is working to develop standards and 
guidance to maximize V2V and V2I benefits, and I look forward 
to learning more about the rules the agency plans to advance to 
meet that objective.
    Again, I look forward to hearing from all of our witnesses 
to gain from their perspectives on how we can maximize the 
potential of V2V and V2I technology while minimizing potential 
risks. I yield back.

    Ms. Schakowsky. And with just a little over a minute, let 
me yield right now to Mr. Butterfield for his comments.

OPENING STATEMENT OF HON. G.K. BUTTERFIELD, A REPRESENTATIVE IN 
           CONGRESS FROM THE STATE OF NORTH CAROLINA

    Mr. Butterfield. Thank you very much, Ms. Schakowsky. Mr. 
Chairman, thank you very much for convening this hearing. The 
safety potential of V2V communication is very significant. It 
is in everyone's best interest to reduce traffic fatalities and 
injuries. It is my belief that eventually this technology can 
be helpful to that end. I am also interested in how this 
technology can potentially benefit even pedestrians, and 
bicyclists, and those riding motorcycles.
    There are many issues to work out to make sure this 
technology can become effective. I am encouraged by USDOT, and 
the National Highway Transportation Safety Administration for 
bringing all stakeholders to the table to work through issues, 
including reliability, interoperability, data security, 
spectrum, and deployment. Again, I appreciate the deliberative 
process that DOT has been taking with the rulemaking. I look 
forward to discussing the potential of these technologies to 
improve the safety of all Americans. Thank you for the time.
    [The prepared statement of Mr. Butterfield follows:]

              Prepared statement of Hon. G.K. Butterfield

    Thank you Chairman Burgess and Ranking Member Schakowsky 
for holding this hearing on vehicle-to-vehicle communication 
technologies. The safety potential of V2V communication 
technologies is significant. It is in everyone's best interest 
to reduce traffic fatalities and injuries, and it is my belief 
that eventually this technology can be helpful to that end. I 
am also very interested in how this technology can potentially 
benefit pedestrians, bicyclists, and those riding motorcycles.
    However, there are many issues to work out to make sure 
this technology can be effective. I am encouraged that the U.S. 
Department of Transportation and the National Highway 
Transportation Safety Administration is bringing all 
stakeholders to the table to work through issues including 
reliability, interoperability, data security, spectrum, and 
deployment. I appreciate the deliberate process the DOT has 
been taking with this rulemaking, and look forward to 
discussing the potential of these technologies to improve the 
safety of eastern North Carolinians.

    Mr. Butterfield. I yield back to you, Ms. Schakowsky. Yes, 
I yield back to you.
    Ms. Schakowsky. And I yield.
    Mr. Burgess. The Chair thanks the gentlelady. The 
gentlelady yields back. The Chair would note that there is a 
vote on the floor, but I believe we will have time to conclude 
opening statements, so----
    Mr. Upton. Well, Mr. Chairman, in light of the votes 
happening now, I am going to submit my statement for the 
record, and yield back.
    [The prepared statement of Mr. Upton follows:]

                 Prepared statement of Hon. Fred Upton

    I often remind you all that I'm from the auto State. It's 
because folks from Michigan take special pride in manufacturing 
vehicles that offer safety, comfort, efficiency, and superior 
driving experiences to consumers throughout the United States 
and around the world. We also take pride in being leaders and 
trendsetters in the development of automotive technologies that 
saves lives.
    Today we examine the advancement of a transformative safety 
technology: vehicle-to-vehicle communications. This is a safety 
technology that helps drivers avoid crashes before they happen 
by allowing cars to ``talk'' to each other and sense another 
vehicle's movements. By alerting drivers to potential safety 
risks on the road and giving them an opportunity to proactively 
avoid them, it is projected that vehicle-to-vehicle 
communications will save thousands of lives and generate 
societal and economic benefits that extend far beyond the 
transportation sector.
    Last year, following the Department of Transportation's 
Connected Vehicle Safety Pilot program conducted at my alma 
mater, the University of Michigan in Ann Arbor, NHTSA announced 
plans to pursue a regulatory proposal that would require 
vehicle-to-vehicle communications devices in new cars. As NHTSA 
moves forward with its rulemaking, there are plenty of 
questions to answer.
    Drivers will need to understand what the technology is, how 
it works, and why they should adopt it. Congress needs to know 
that NHTSA is in a position to do its job--by ensuring that 
this safety technology is safely and properly deployed. This is 
a technology that has a connectivity curve to it--the more cars 
and infrastructure that are connected the more benefits there 
are. This committee needs to understand the technology and the 
marketplace to ensure that the proper policies are in place to 
incentivize adoption--to achieve a connectivity critical mass.
    Ensuring that V2V is done right is a committee wide 
priority, and I want to acknowledge the important meetings that 
Chairman Walden has been leading with Ranking Members Pallone 
and Eshoo to address the question of whether and how 
Intelligent Transportation Systems can co-exist with unlicensed 
uses. Our O&I subcommittee has taken the lead in sending out 
letters to ensure that cybersecurity is front and center in 
everyone's minds as we move forward. Today, however, we are not 
focusing on spectrum or cybersecurity. We are focusing on the 
safety aspects, deployment timelines, and NHTSA's role.
    The deployment of vehicle-to-vehicle communications is 
right around the corner. This is a welcome endeavor that marks 
a revolutionary phase in the Nation's transportation system. It 
represents the first ripple in what will be a torrent of new 
technologies. We all, as policymakers and consumers, need to be 
prepared for its implementation and I look forward to exploring 
those plans today.
    I am pleased that this panel reflects Michigan's leadership 
with fellow Wolverine Dr. Peter Sweatman, who has helped 
oversee a pilot V2V program at GM. We look forward to your 
testimony and seeing these V2V equipped Cadillacs on the road. 
We have come a long way since the seat belt was a breakthrough 
safety device. Now Jetsons technology is becoming a reality in 
our cars. It's an exciting time. I thank Dr. Burgess for 
convening this hearing and for the subcommittee's continued 
efforts to improve driver and vehicle safety.

    Mr. Burgess. Very well. In that case, Mr. Pallone, you are 
recognized for 5 minutes for the purpose of an opening 
statement.
    Mr. Pallone. I am sorry, Mr. Chairman, did you--are you 
trying to speed it up? Is that the idea?
    Mr. Upton. I did.
    Mr. Pallone. All right. I will----
    Mr. Upton. So I----
    Mr. Pallone. I will do the same, and--my statement, like 
Chairman Upton.
    [The prepared statement of Mr. Pallone follows:]

             Prepared statement of Hon. Frank Pallone, Jr.

    Today's hearing is a welcome opportunity to learn more 
about vehicle-to-vehicle, or V2V, communications--a technology 
with great potential to improve safety on our highways and 
roads.
    Despite the enormous progress we've made over the past 
several decades in installing air bags, seat belts, and other 
crash-resilient measures in our vehicles, fatalities from car 
crashes still number in the tens of thousands each year, and 
preventable injuries number in the millions. We can, and must, 
do more to ensure the safety of our driving population. One way 
to do this is through crash avoidance technologies such as V2V 
communications.
    Over the past decade and a half, Government, industry, and 
the research community have worked together to help make so-
called ``connected cars'' a reality. This cooperative effort 
has produced a system that allows cars to communicate with each 
other over a wireless network and a host of on-board features 
designed to provide warnings to drivers about potentially 
dangerous situations detected through those vehicle-to-vehicle 
communications.
    For example, a V2V system can warn a driver approaching an 
intersection if another vehicle is about to run through a stop 
sign, thereby avoiding a potential collision. V2V systems have 
also been tested to help drivers brake suddenly, avoid blind 
spot collisions, and safely change lanes. The National Highway 
Traffic Safety Administration (NHTSA) estimates that this 
technology has the potential to reduce unimpaired vehicle 
crashes by 80 percent.
    While the progress and potential of this technology are 
clear, we in Congress must continue to ensure proper oversight 
as NHTSA moves aggressively toward its goal of finalizing its 
V2V rulemaking by the end of this year. While pushing for V2V-
enabled cars, NHTSA must also ensure drivers have the most 
beneficial crash avoidance and crashworthiness technologies in 
all cars, not just those supported by V2V communications. 
Vehicle-to-vehicle communications is just one component of an 
overall strategy to make our highways and roads a safe place to 
drive.
    Ensuring privacy and security should also a top priority 
for Congress. Safe vehicles must be resilient against hacking 
attempts and must ensure the anonymity of drivers' data. 
Consumer groups and the Federal Trade Commission provided NHTSA 
with comments on how to ensure consumer privacy and security in 
its rulemaking proceeding, and my hope is that the agency 
addresses these concerns moving forward.
    The availability of spectrum is another important component 
of our discussion of V2V implementation. Congress has heard 
repeatedly from stakeholders in the intelligent transportation 
community as well as the unlicensed community about their 
legitimate concerns regarding sharing spectrum in the upper 5 
GHz band. I am confident both sides can work together to 
resolve their difference so consumers see a two-fold benefit--
V2V communications that improve vehicle safety, and an 
expansion of Wi-Fi networks that broaden access to the 
Internet. This committee recently initiated a series of 
bipartisan meetings to facilitate a sharing solution among all 
stakeholders in this area, and I look forward to continuing 
this worthwhile effort.
    Thank you, Mr. Chairman for convening this hearing, and 
thank you to the witnesses for your testimony. As 
Transportation Secretary Foxx stated last month, our goal 
should be moving toward an era when vehicle safety isn't just 
about surviving crashes; it's about avoiding them.

    Mr. Burgess. Very well. In that case, we will move on to 
the witness testimony part of the hearing, and I do want to 
welcome all of our witnesses. Thank you for taking the time to 
testify before the subcommittee.
    Our witness panel for today's hearing will include Mr. Nat 
Beuse, the Associate Administrator of Vehicle Safety Research, 
National Highway Traffic Safety Administration, Dr. Peter 
Sweatman, Director of the University of Michigan Transportation 
and Research Institute, Mr. David St. Amant, President and 
Chief Operating Officer of Econolite Group, Mr. Barry Einsig, 
Global Transportation Executive for Cisco, and Mr. Harry 
Lightsey, the Executive Director of Global Connected Customer 
Experience at General Motors. We do appreciate all of you being 
here today. We are going to attempt to get through as much of 
the witness testimony as we can before we must go vote. So, Mr. 
Beuse, you are recognized for 5 minutes for your opening 
statement. Thank you.

STATEMENTS OF NATHANIEL BEUSE, ASSOCIATE ADMINISTRATOR, VEHICLE 
       SAFETY RESEARCH, NATIONAL HIGHWAY TRAFFIC SAFETY 
ADMINISTRATION; PETER F. SWEATMAN, PH.D., DIRECTOR, UNIVERSITY 
OF MICHIGAN TRANSPORTATION RESEARCH INSTITUTE; HARRY LIGHTSEY, 
   EXECUTIVE DIRECTOR, GLOBAL CONNECTED CUSTOMER EXPERIENCE, 
GENERAL MOTORS; DAVID ST. AMANT, PRESIDENT AND CHIEF OPERATING 
   OFFICER, ECONOLITE GROUP, INC.; AND BARRY EINSIG, GLOBAL 
         TRANSPORTATION EXECUTIVE, CISCO SYSTEMS, INC.

                  STATEMENT OF NATHANIEL BEUSE

    Mr. Beuse. Thank you. Good morning, Chairman Burgess, 
Ranking Member Schakowsky, and members of the subcommittee. I 
appreciate this opportunity to testify before you about vehicle 
to vehicle communications, its readiness for application, and 
its potential safety benefits. For more than 50 years the 
National Highway Traffic Safety Administration's vehicle safety 
activities have enhanced occupant protection when crashes 
occur. But as Secretary Fox recently said, the Department wants 
to speed the Nation towards an era when vehicle safety isn't 
just about surviving crashes, it is about avoiding them. To 
that end, USDOT and NHTSA have accelerated efforts to bring 
vehicle to vehicle communications, automated vehicle features, 
and the full complement of advanced safety technologies to the 
cars, trucks, and commercial vehicles that Americans drive.
    Our studies show that 94 percent of vehicle crashes are due 
to driver error, and we believe technologies can help reduce or 
eliminate it. NHTSA has been aggressively pursuing two 
complementary technology paths to address this issue. One path 
involves those technologies enabled by sensors, such as V2V, 
camera, and radar, that alert drivers of impending collisions. 
The second path involves those technologies, in some cases 
enabled the same technologies that I just mentioned, as well as 
additional ones that perform some automated vehicle function, 
such as automatic emergency braking when the driver doesn't 
take any action at all. We have already included some warning 
technologies into the Government's five-star rating program, 
also known as NCAB, and we have recently announced our intent 
to include automatic braking technologies into that influential 
program as well. When integrated, these connected and automated 
vehicle technologies represent the building blocks that will 
bring us the ultimate of full self-driving vehicles.
    V2V technology is based on vehicles--sharing their 
position, speed, and heading information with each other in 
near real time fashion. This anonymous exchange of data occurs 
over dedicated short range communications, otherwise known as 
VSRC, on the 5.9 Gigahertz spectrum. This piece of spectrum is 
quite unique. It has been dedicated for a number of years, in 
large part thanks to the Intelligent Transportation Society of 
America, the American Association of Highway and Transportation 
Safety Officials, and the FCC, which had the foresight to 
actually reserve the spectrum to assist in the development of 
this important technology.
    By providing for enhanced 360 degree situation awareness, 
the kind that allows a driver to see around corners, V2V 
technology can assist a driver in many challenging crash 
scenarios that are very difficult for other sensors to do. For 
instance, V2V technology can help drivers avoid an intersection 
crash, one of the deadliest crash types on the roadway, where 
two vehicles may be on a collision path, but because of 
obstructions, are completely unaware of it. NHTSA's testing and 
analysis of V2V technology indicates that it can address 
approximately 80 percent of all unimpaired crashes involving 
two or more motor vehicles.
    In 2013 NHTSA achieved a key research milestone when V2V 
technology was tested in the real world. The safety pilot model 
deployment tested nearly 3,000 vehicles from eight different 
manufacturers driven by regular citizens, and not engineers. 
For just over a year NHTSA and DOT monitored and collected data 
on the performance of the technology as these drivers went 
about their daily lives in the Ann Arbor, Michigan area. Data 
collected from that study helped shape NHTSA's decision to move 
forward with V2V technology.
    In August of 2014, NHTSA issued an Advance Notice of 
Proposed Rulemaking. That document initiated rulemaking for a 
DSRC vehicle-based communication system on all new light duty 
vehicles. NHTSA indicated that the regulatory approach could be 
to require the basic radio system, security features, and 
functionality to support inter-operability between vehicles, 
but we did not specify that we would require safety 
applications. NHTSA indicated that this approach would allow 
the market and automakers to innovate and compete in offering 
safety applications and a whole host of other applications of 
their choosing. Concurrent to the ANPRM, NHTSA also issued a 
comprehensive vehicle to vehicle communications readiness of 
V2V technology for application report. This report provided 
details on the technology, results of numerous testing 
programs, benefits, deployment challenges, as well as security, 
privacy, policy, and regulatory issues.
    In May of this year Secretary Fox announced USDOT's intent 
to accelerate NHTSA's V2V rulemaking activities, with the goal 
of issuing a proposal in 2016. Secretary Fox also announced our 
readiness to accelerate testing of potential sources of 
interference in the 5.9 Gigahertz spectrum. USDOT, NHTSA, 
vehicle manufacturers, suppliers, and technology companies have 
conducted extensive analysis, control testing, and real world 
field studies of V2V. Our conclusion, based on the body of 
work, and the observation of commenters to NHTSA's ANPRM, is 
that vehicle to vehicle communications offers an important 
opportunity to dramatically improve highway safety in the 
United States.
    While my testimony has focused on the readiness of the 
technology, and its potential safety benefit, there are also 
mobility and environmental benefits that will also be enabled 
by this technology. Similarly, some innovative States have--who 
have been following the development of this technology have 
already started making plans to deploy vehicle to 
infrastructure, in anticipation of the Department's efforts.
    Thank you for the opportunity to update this committee on 
the game changing potential of this remarkable safety 
technology, and the agency's progress towards accelerating its 
deployment. I look forward to answering your questions.
    [The prepared statement of Mr. Beuse follows:]
    
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]   
    
  
    
    Mr. Burgess. The Chair thanks the gentleman. The Chair 
recognizes Dr. Sweatman. 5 minutes for a summary of your 
opening statement, please.

                 STATEMENT OF PETER F. SWEATMAN

    Mr. Sweatman. Chairman Burgess, Ranking Member Schakowsky, 
and members of the subcommittee, thank you for the opportunity 
to testify today about vehicle to vehicle communications, or 
what--I will just call it V2X. My name is Peter Sweatman, 
Director of UMTRI. I am a past Board Chair of ITS America, and 
immediate past chair of its Leadership Circle. I want to tell 
you about our experience with V2X for safety. We conducted the 
USDOT's safety pilot model deployment from August 2012 through 
August 2014. We deployed 2,843 vehicles, collected 115 billion 
messages from 35 million miles of driving. The community, 
including about 2 \1/2\ thousand volunteers, embraced V2X. Our 
volunteers reported receiving warnings that prevented crashes. 
The stoplight application, excuse me, where you are alerted to 
a vehicle stopping suddenly several vehicles ahead, was 
extremely popular. And analytics on the system testing data by 
USDOT confirmed V2X's life saving potential, excuse me, on a 
large scale, hence NHTSA's decision to proceed with rulemaking.
    This V2X experience compelled us to do more. An incredible 
47 companies have come to the table to expand the Ann Arbor 
mobile deployment and create larger real world deployments. The 
USDOT is still contributing, but this new ecosystem brings both 
funding and equipment. It includes automakers, T-1 suppliers, 
traffic control, and sensor suppliers, aftermarket suppliers, 
insurance, telecommunications, Big Data, IT, and mobility 
services. Excuse me, Mr. Chairman.
    Mr. Burgess. Sure.
    Mr. Sweatman. We are working with the Michigan Department 
of Transportation, the City of Ann Arbor, and numerous counties 
to equip the infrastructure. The UM invested in NTC to deploy a 
planned 20,000 vehicles over the next 2 years, building on the 
I-96 smart corridor created by Michigan DOT. This will be the 
first sustainable, production-ready U.S. V2X deployment. We are 
currently expanding the Ann Arbor deployment to 9,000 vehicles, 
and working with the city to make it sustainable, and that is 
the wish of the city. Our current V2X volunteers, many of whom 
are parents in the Ann Arbor public school system, are excited 
about students being connected into lifesaving V2X via 
smartphones. Mr. Chairman, we have also found that 
motorcyclists love the idea that with V2X they are more likely 
to be detected by other vehicles.
    There is no substitute for DSRC, and an entire ecosystem of 
companies is committed to V2X using 5.9 DSRC. They are all 
building product strategies around V2X, including automation. 
DSRC is the only technology that has been successfully tested 
for saving lives by both automakers and NHTSA. Infrastructure 
costs are very affordable. At the time of the safety pilot, 
each set of roadside equipment cost $15,000. We deployed 27 
sets to equip roughly a quarter of the city. 3 years later, the 
cost of the radios is higher, so the current cost for a city of 
140,000 people is under a million dollars. For our enlarged 
deployment, that works out at $90 per vehicle equivalent. Most 
of the radios are installed at intersections. V2X turns 
ordinary traffic signals into adaptive traffic signals without 
additional cost, so services like Greenwave, which provide 
conspicuous value to consumers on a daily basis, may be 
provided by the city.
    Initial V2X deployments are being replicated. Our 
Southeastern Michigan V2X deployment is designed to be 
sustainable and expandable other locales around the country. 
V2X also creates innovation beyond its primary mission of 
safety. All of our automotive partners are developing DSRC 
products, and our traffic control technology partners are also 
using DSRC to include maps in traffic signal controllers. This 
is not about the auto industry or the tech industry. We are 
seeing what happens when the auto industry, the traffic 
industry, the infrastructure managers, and broader tech-based 
and service industries come together.
    V2X also supports automated vehicles. Automation will 
transform our transportation system. From the perspective of an 
autonomous vehicle, V2X is the most powerful of sensors for a 
highly affordable cost. For example, it is hard to imagine the 
automated use case of platooning vehicles without V2X. Federal 
actions are needed to better define the playing field, and 
there is an important role in supporting ever larger 
deployments of V2X.
    In a few weeks the University of Michigan will M City, a 
safe off-roadway urban test environment for connected and 
automated vehicles. I invite you to the grand opening, Monday, 
July 20, on the University of Michigan campus. Thank you once 
again.
    [The prepared statement of Mr. Sweatman follows:]
    
  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]  
    
   
    
    Mr. Burgess. The Chair thanks the gentleman. Gentleman 
yields back. We are out of time on our vote. There are 280 
members who haven't voted yet. I think I can still move faster 
than about 100 of them, but, Mr. Lightsey, in order to give you 
fair consideration, let us go into a recess while we have this 
series of three votes on the floor, and we will reconvene 
immediately after the vote series on the floor, if that is 
satisfactory to you. So the committee stands in recess, subject 
to the call of the Chair.
    [Recess.]
    Mr. Burgess. Subcommittee will come to order, and Mr. 
Lightsey, I think we were at you when we adjourned for votes, 
so you are recognized for 5 minutes for your opening statement, 
please.

                  STATEMENT OF HARRY LIGHTSEY

    Mr. Lightsey. Thank you, Mr. Chairman, Ranking Member 
Schakowsky, and members of the subcommittee. GM appreciates 
this opportunity to tell you about the progress that is being 
made with the rollout of vehicle to vehicle, or V2V, on our 
roads and highways. GM is strongly committed to V2V technology, 
as we believe it has the potential to revolutionize vehicle 
safety and intelligent transportation. Indeed, the National 
Highway Traffic Safety Administration has estimated that V2V 
could, by itself, impact over 80 percent of the over four 
million annual unimpaired light vehicle crashes, saving lives, 
and reducing the $871 billion cost to our Nation's economy each 
year. There simply is no other safety technology available now, 
or that is on the horizon, that matches the promise of V2V.
    GM pioneered connected vehicle technology with its OnStar 
brand, and is also taking a leadership role with V2V 
technology. In September of last year our CEO, Mary Barra, 
announced that GM would be putting V2V in the model year 2017 
Cadillac CTS, which will be available in the latter part of 
next year. GM is not only a preliminary adopter of V2V, but 
continues to work with the Department of Transportation, and 
other automakers, to research, develop, and test the 
technologies that form the basis of V2V. In fact, after years 
of extensive stakeholder collaboration, research, and 
development, GM is now substantiating the promise of talking 
cars, and fully supports the shift from the lab into the real 
world testing and implementation.
    GM is encouraged by the actual road testing that has 
already taken place, and by the Department of Transportation's 
recent announcement that it will accelerate the rulemaking 
process for wide scale V2V implementation. GM seeks to build 
upon this positive momentum, and is confident that the industry 
and other stakeholders share our sense of urgency. With so much 
at stake for vehicle safety, now is the time to advance this 
technology as quickly as possible.
    I am excited for the opportunity to share more about GM's 
commitment to V2V, and am happy to answer the committee's 
questions.
    [The prepared statement of Mr. Lightsey follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
  
    
    Mr. Burgess. The gentleman yields back. The Chair thanks 
the gentleman. Mr. St. Amant, you are recognized 5 minutes for 
your opening statement, please.

                  STATEMENT OF DAVID ST. AMANT

    Mr. St. Amant. Mr. Chairman and distinguished members of 
the subcommittee, it is my privilege to be part of this 
hearing. Thank you for the opportunity to testify today. My 
name is David St. Amant. I am the Chief Operating Officer of 
Econolite Group, Inc., a nationwide company with headquarters 
in Southern California. I am also a recent past Board Chair of 
the Intelligent Transportation Society of America, and current 
member of the ITS America Leadership Circle. We have been in 
the traffic management business since 1933, developing 
signalized intersection technology to meet the needs of 
municipalities throughout the Nation. Specifically, during the 
last 10-plus years, Econolite has focused much of its attention 
on helping shape industry standards in collaborating with 
leading technology partners to advance the U.S. Department of 
Transportation's Vehicle Infrastructure Communication 
Initiative.
    We believe that the connected vehicle technologies we will 
see when we are able to connect every vehicle, motorcycle, 
bicycle, or pedestrian and an intersection, and with that 
valuable information we will be able to help prevent crashes 
and move traffic much more efficiently and safely than with 
today's technology. The main difference between the way we will 
detect--we actually detect today and how we will process 
information used in the V2V infrastructure data in the future 
is that instead of detecting vehicles at a fixed point in the 
roadway, for the first time the vehicle will be able to send 
this local--this location information in real time and let us 
know where it is going, and we can predict where it will be, 
enable signals to adjust their timing, and warn approaching 
vehicles when necessary for preventing crashes, and determine 
by modality why it should be a green light of priority.
    This new approach changes everything. Our system will be 
able to manage all traffic, not just a sampling of traffic. We 
will know, for example, the actual number of vehicles in the 
left turn lane queue, not just an estimate, and provide a 
slightly longer green light to flush traffic through the 
intersection, thus avoiding long waits and start and stop 
traffic, which causes traffic congestion, increases pollution 
and safety hazards. And most importantly, we can reduce the 
number of vehicles and pedestrian crashes at intersections, and 
help emergency vehicles reach the site of a crash faster and 
safer. We believe in this technology so strongly that we are 
already building V2I communications into many of our new 
traffic signal controllers.
    As we are implementing this revolutionary technology, we 
are also working to ensure that a connected vehicle and 
transportation network is designed to protect privacy and 
safeguard against cybersecurity threats. It is also critically 
important that the 5.9 Gigahertz band of spectrum, which was 
set aside for the V2X communication, be protected from harmful 
interference that could result if unlicensed devices are 
allowed to operate in the band. DSRC in the 5.9 Gigahertz band 
is the only technology currently available that provides the 
proven high speed reliable communication necessary to support 
the V2X crash avoidance systems and intersections--at 
intersections and between vehicles.
    We are working closely with ITS America, the USDOT, 
American Association of State Highway and Transportation 
officials, and Institute of Transportation Engineers to bring 
all stakeholders together through a V2I deployment coalition 
that will advance the deployment of this critical safety 
technology. If we are ever going to realize or get close to our 
goal of zero deaths on America's roads, this is our best 
opportunity. Thank you very much for allowing me to be at this 
hearing today, and I look forward to your questions.
    [The prepared statement of Mr. St. Amant follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
  
    
    Mr. Burgess. The Chair thanks the gentleman. The Chair 
recognizes Mr. Einsig. 5 minutes for a summary of your opening 
statement, please.

                   STATEMENT OF BARRY EINSIG

    Mr. Einsig. Thank you, Chairman Burgess, Ranking Member 
Schakowksy, and the members of the--I thought I was loud enough 
to begin with--and members of the committee for your--for the 
opportunity to testify this morning. Our Nation is at the cusp 
of the next great leap in automotive technology, one of which 
will revolutionize how we get from place to place, and how we 
protect ourselves and our children from deadly harm. The next 
great chapter represents the single greatest transformation 
since the advent of the assembly line.
    Vehicles today are engineering marvels, but their 
capabilities are not being fully utilized. It is like using a 
smartphone in airplane mode, amazing devices, but fulfilling 
only a fraction of their potential. So how do we fulfill the 
potential of cars coming onto the roads today? We need to 
ensure that every single new car designed for the U.S. market 
is equipped with radio technology known as Dedicated Short 
Range Communications, or DSRC, as we have heard here earlier. 
This will take our cars out of airplane mode and open the door 
to a constant stream of vehicle to vehicle and vehicle to 
infrastructure communications. That will save lives, reduce 
cost, improve traffic congestion, and eliminate tons of 
pollution. In doing so, we will usher in a new era of 
transportation safety, innovation, new business models and 
applications.
    Why is Cisco involved in this transformation? We are a $47 
billion company formed on the simple idea that computer systems 
should be able to talk to each other. Cisco not only builds 
equipment solutions that route packets of data, but we provide 
data storage, cloud, wireless, security, and many other 
products and solutions that go in to customers around the 
globe. Our business is focused on developing the Internet of 
everything. That is the connection of people, process, data, 
and things, the Internet, and--the vast majority of which has 
never been connected before, including automobiles.
    The scope of this transformation is enormous. Cars, and 
eventually trucks and all vehicles, will be connected to each 
other and to the roadside communications network via the radio 
through a complex communications network. This network needs 
interoperability, standards-based technology, as well as tested 
architectures for delivering a highly secure, mobile, and high 
availability solution. That is what Cisco does. We will layer 
on it an advanced, secure IP network on the top of the physical 
network that consists of the vehicles and the roads. We will 
use a combination of DSRC and wired and wireless technologies.
    Surface transportation will become a connected system 
generating new data, and what that data can do will amaze you. 
Most importantly, data will have a dramatic impact on safety. 
Cars connected to each other will be able to help drivers avoid 
everything from a fender bender to a deadly crash. Cars will 
have the capability to warn motorists to brake immediately, or 
even to take evasive action when accidents are imminent. This 
will save countless lives, and trillions of dollars in property 
damage and lost productivity.
    Just as importantly, by sending crash data to first 
responders in real time, we can direct police, fire, and EMS 
personnel to the scene without delay. We could improve traffic 
throw--flow through real time traffic lights and ramp metering 
systems. American commuters already spend 5 days per year stuck 
in traffic. This is a congestion penalty we all pay. It costs 
Americans over $1,400 per year per household, and that amount 
is expected to rise to $3,000 per year by 2030. We could 
improve our ability to manage road maintenance and 
infrastructure systems by collecting and analyzing more 
specific data on the use of our roadways.
    But many of these benefits are today not available, or 
exist at much reduced levels because most of the vehicles are 
not yet equipped with DSRC technology. At the moment the 
private sector is poised to deploy DSRC, not just radios in 
cars, but the corresponding IP network that will connect our 
roadways in ways never before possible. Once vehicle to vehicle 
communications are widely installed in cars and light trucks as 
a safety measure, the private sector, and our public sector 
partners, will respond swiftly to bring full sets of DSRC 
benefits to the American consumers.
    The potential of DSRC is not some far off dream. It is 
within our grasp. This is the time for America to be leading, 
not to be left behind. Other nations, including Austria, the 
Netherlands, Canada are adopting intelligent transportation 
systems, including DSRC. These technologies should be on 
American roads. The future of transportation, and the safety of 
transportation, is bright.
    We thank you for your attention to these important 
developments in road safety, and look forward the NHTSA's 
future adoption of the final rule for DSRC installation on 
vehicles. Thank you, and I am happy to answer any questions.
    [The prepared statement of Mr. Einsig follows:]
    
    
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]   
    
    
    
    Mr. Burgess. The Chair thanks the gentleman. I thank all 
the witnesses for their testimony, and we will move now into 
the question and answer portion of the hearing. And I will 
begin by recognizing myself for 5 minutes for questions.
    And, actually, I want to start, Mr. Beuse, with a public 
service announcement for people who are watching, in spite of 
all of our interruptions. If you do not know the Vehicle 
Identification Number of your car, you need to. It is located 
at the lower left hand of your windshield, or inside the 
driver's side door post. You need to go to safercar.gov--
correct, Mr. Beuse? You need to go to safercar.gov, put your 
Vehicle Identification Number into the database, and check it 
to make certain that you are not subject to an airbag recall, 
because the accident that could result could be devastating. So 
am I correct in offering that public service announcement?
    Mr. Beuse. You are, and I thank you very much.
    Mr. Burgess. You know, but that actually underscores one of 
the challenges ahead of us, and--to get people to bring their 
cars in, or to even acknowledge that there may be a recall 
notice out there that might affect them, and to get them to 
check. When you get to the third or fourth owner on a vehicle, 
I mean, this--a lot of times attention kind of drops off. So we 
are talking about some fantastic technology, and I believe we 
heard in some of the latter testimony that it is going to be--
the technology is going to be so smart that if the other car is 
equipped, that the technology is going to smart enough to 
detect it, but still it might work better if people had 
aftermarket items installed. How are we going to get the word 
out to people that they may need to now consider an additional 
expense for their car?
    Mr. Beuse. Mr. Chairman, we are doing a couple of things on 
that front. When we did the safety pilot in Ann Arbor, Michigan 
we actually tested aftermarket devices. And the reason that we 
did that was to see--could the communication protocol work for 
a device that wasn't basically built into the vehicle, and what 
benefits would it serve? So we have to address kind of the 
technical performance first.
    The second part of your question has to do with getting 
just consumer awareness up in general about crash avoidance 
technologies. We agree with you that the secondhand market and 
the third-hand market is an area that needs focus, and, you 
know, we are working some issues on that front. It will be no 
different with this particular technology, especially because 
it is the one crash avoidance technology right now that 
actually has strong potential in the aftermarket to be 
deployed.
    Mr. Burgess. Let me just ask you, as we have heard across 
the panel this morning, these devices are going to be developed 
by multiple suppliers. What is the process by which your agency 
is establishing--is going to go about establishing performance 
requirements for the devices, and the types of safety messages 
that they are able to support?
    Mr. Beuse. In the ANPRM we actually sought comment on how 
to do that. One of the things we learned, quite surprisingly, I 
think, in the model deployment was that the performance was 
actually really good for these aftermarket devices. So going 
forward in our proposal, that is one thing we will have to 
specify, is how that performance level should be between 
aftermarket and sort of built into the vehicle. I think as 
proposed--or announced in the ANPRM, there would really be no 
desire to have a difference in performance between those two 
devices because, from a vehicle manufacturer standpoint, they 
have got to be able to know that the message that they are 
receiving, no matter where it came from, that is it is--and it 
is--actually has the same performance as they are building into 
those vehicles themselves.
    Mr. Burgess. Dr. Sweatman, let me just ask you this, 
because we do see a lot of promise with these--with the ability 
for communicating between vehicles, and, you know, we also read 
about the driverless car. That is a pretty neat thing too. So 
how are these two technologies, how are they--they going to 
merge? Are there any issues where we need to be cautious 
because there can be conflicting constituencies there?
    Mr. Beuse. So the integration question is very, very real. 
The way we look at the world is all these technologies will, 
yes, converge, that V2V, camera, radar sensors, and a whole 
host of others sensors that--will come about with automated 
vehicles will all merge together to sort of truly deliver that 
full self-driving vehicle that we all imagine, that we get in 
our car and go in the back seat, or it is a robo-taxi, or 
whatever the scenario is. There--in our view, there isn't a 
competing technology. It is not one or the other, it is all of 
them working in concert together, and it really will be an 
integration issue on the manufacturing side, how they integrate 
those various sensors to make sure they are double-checking 
each other to be able to do the functions that they want to 
deliver to the American public.
    Mr. Burgess. And Dr. Sweatman, did you have anything you 
wanted to add to that?
    Mr. Sweatman. Yes, thank you, Mr. Chairman. I mean, we are 
very excited about the convergence of V2X and automation. So we 
know that autonomous vehicles work, but certain--I think most 
of us would take the attitude that if you have the V2X 
available, that adds a--brings a lot to the autonomous vehicle. 
And in a sense you can think about V2X as being the ultimate 
sensor, in terms of its capability, per dollar cost, so it is a 
very affordable cost, compared to radars and equipment like 
that that needs to be in every vehicle, and really does add a 
lot to an automated vehicle.
    So we are very strong proponents of bringing the two 
together. If you think about V2X as a sensor, not only is it 
the equivalent of a visual sensor, that it can see another 
vehicle, can see whether it is moving closer to your vehicle or 
further away, but if that other vehicle is broadcasting 
additional information, such as the anti-lock brakes are being 
activated in that vehicle, that information can come into your 
vehicle as well. So, in a sense, you can get information that 
you would not have in any other way. So by the time you 
converge all these pieces of information and technologies 
together, we have a very, very robust automated vehicle.
    Mr. Burgess. Very well. The Chair thanks the gentleman. The 
Chair recognize the gentleman from New Jersey, Mr. Pallone. 5 
minutes for questions, please.
    Mr. Pallone. Thank you, Mr. Chairman. While test programs 
have shown that V2V has great promise in its ability to reduce 
fatal crashes, I remain very interested in non-V2V crash 
avoidance and crashworthiness technologies that are available 
to consumers in many cars today, and have been shown to make 
driving safer.
    So, Mr. Beuse, what, if any, impact with NHTSA's future V2V 
mandate have on other safety technology, such as airbags, seat 
belts, and brakes, or other crash avoidance technology, such as 
rear visibility cameras, and what non-V2V technology is 
currently being considered by NHTSA that also has the potential 
to save lives on the road?
    Mr. Beuse. So we are looking at any technology that can 
save lives. That is what we do. When you talk about how V2V 
will be leveraged inside the vehicle, I think it is not clear 
yet how that will be done by the vehicle manufacturers. Right 
now we are just focused on making sure that the communication 
protocol between those devices is secure, and that people can 
basically understand each other when they are communicating.
    As far as crashworthiness, there are lots of ideas floating 
around about how to further use these crash avoidance sensors 
to help improve crashworthiness. Think about adaptive 
restraints. So the vehicle knows it is about to get into a 
crash, and then leverages that camera and radar information to 
help prepare the driver for that crash by tuning the system, 
let us say. So there are opportunities there that have--haven't 
been fully explored yet.
    Mr. Pallone. OK. I would like to clarify some of the 
statistics we have heard today. The Department of 
Transportation estimates that V2V communications could prevent 
approximately 80 percent of crashes involving non-impaired 
drivers. So, Mr. Beuse, does this estimate reflect V2V systems 
that warn drivers of potential dangers and require them to take 
corrective action behind the wheel, or does it also include 
autonomous V2V technology, such as automatic braking and lane 
keeping? Or, put another way, do we see the 80 percent 
reduction from warnings alone?
    Mr. Beuse. The 80 percent is the target population. So what 
is the universe of crashes that this technology can address? 
One of the things we did in the readiness report is we actually 
looked at two particular safety applications that have no 
overlap with existing on board systems, so the ones that you 
mentioned, lane departure, and things like that. And so, just 
based on those two applications alone, we estimated half--over 
a half a million crashes and about 1,000 lives that could be 
saved just from two singular applications.
    To do the detailed math to get down into overlapping 
technologies and things like that, we have not done that yet. 
We really just focus--to make it simple, to focus on the two 
applications that there is no overlap. So one maybe could argue 
that we are, in a sense, underestimating the potential of the 
technology by doing that, but that is what we did to make it 
clear and simple. And just based on those two safety 
applications alone, the benefits were pretty remarkable.
    Mr. Pallone. OK. And NHTSA estimates that approximately 
33,000 people were killed in motor vehicle accidents in 2013. 
Of those, just over 10,000 were killed in crashes resulting 
from alcohol impairment. That means that 23,000 people were 
killed in unimpaired crashes, is that correct?
    Mr. Beuse. It is--yes, and--in a way, but to kind of break 
down the math to see how it applies to V2V, there is some 
double counting that happens because there are heavy vehicles 
in there. There was motorcycles, and things like that, so we 
haven't done the math yet in the way that they question was 
phrased, but it is true, about 10,000 or so people die on our 
Nation's roadways every year from drunk driving.
    Mr. Pallone. Well, I understand there are many variables 
that affect the statistics, such as whether a crash involved 
only one car without another to talk to, but could V2V 
technology eliminate close to 80 percent of those 23,000 
fatalities, or 18,400 deaths every year?
    Mr. Beuse. Our view is that, if you look at the two 
applications that have no overlap, it is about half a million 
crashes and over 1,000 people. There is not a technology that 
we are looking at right now that even approaches that. Even the 
automatic braking technologies don't approach those kind of 
numbers. And so we haven't done the full math to go all the way 
up to the 80 percent applicable crashes. We really only focused 
on these kind of very--two narrow scenarios, which is an 
intersection kind of scenario, where there is no technology 
right now that can address that particular crash type that is 
particularly deadly.
    Mr. Pallone. I am going to try to get one more question in. 
The Insurance Institute for Highway Safety, which regularly 
tests and rates autos, considers vehicles equipped with 
automatic braking superior or advanced in terms of driver 
safety. On the other hand, IHS gives--gave systems that merely 
detect an approaching vehicle, and warn the driver of an 
imminent crash a basic safety rating.
    So the vehicles that IHS looked--I am sorry--yes, looked at 
in their ratings used technologies such as lasers, sensors, and 
radar, but as V2V is introduced in future vehicles, do you 
believe warning only systems will be sufficient to protect 
drivers from fatal crashes?
    Mr. Beuse. It will be all of them. It will be all of them. 
We too are very, very excited about automatic emergency 
braking. Just earlier this year we announced our intent to put 
that into the New Car Assessment Program, otherwise known as 
NCAP, which is a same--similar rating system to the Insurance 
Institute for Highway Safety. It is a very, very good 
technology. It gets even better when it has connectivity to 
other vehicles.
    Right now those systems have to make estimates on what the 
vehicle in front of them is doing. Imagine the power that can 
be unleashed if they actually know what the vehicle in front of 
them is doing. So no more do they have to worry about is that a 
Coke can, or is that really a car? They actually know that it 
is a car, and so it is not an either-or. It will be all of 
those technologies working in concert to really deliver real 
safety to the American public.
    Mr. Pallone. All right. Thank you. Thank you, Mr. Chairman.
    Mr. Lance. Thank you, Congressman Pallone, and I recognize 
myself for 5 minutes.
    Mr. Beuse, in a New York Times article earlier this month, 
on June 10, a law professor at the University of South Carolina 
said about V2V that, ``Here is a technology that will 
significantly reduce the kinds of crashes we know about. But, 
at the same time, it will lead to different behaviors, and it 
could lead to new crashes.'' Would you please give us your 
expert opinion on that type of statement?
    Mr. Beuse. Sure. The--I think the article is mostly 
referring to the idea of driver adaptation, and how do drivers 
adapt to new technology, and do they become too reliant on 
these new technologies, and do they then end up doing things in 
the vehicle that they probably normally wouldn't do if they 
didn't have these new technologies?
    Mr. Lance. Rather like texting in a vehicle?
    Mr. Beuse. Correct. We are still studying that. We have not 
seen it in any of the technologies that we promulgated. I had 
the opportunity to work on the electronic stability control 
mandate. There again, in that--context of that rulemaking, 
there was lots of discussion about--you are giving someone a 
technology that they can drive as fast as they want, and the 
vehicle will correct them. How do you think that that is going 
to work?
    And so far we have not seen it in the data where people are 
doing that, because you are in a near cash event, much like 
these technologies that we are talking about. Whether they are 
enabled by V2V, camera, or radar, these are near crash events. 
You do not want to be in these situations at all. My hope is 
you never actually even experience the technology, because then 
that means that you are being a safe driver. And so the driver 
adaptation issue--question is one that we continue to look at. 
We actually have a study going on right now looking at it 
again, but we haven't seen it in the data.
    Mr. Lance. Thank you very much. Mr. Lightsey, is V2V 
technology capable of ranking safety messages such that the 
most immediate safety risks are provided to the driver first?
    Mr. Lightsey. Yes. Well, the--that is the--one of the 
remarkable things about the V2V technology. It has a very 
sophisticated set of algorithms and mathematical computations 
that it works on, and it delivers the most imminent threat 
alerts to the driver.
    Mr. Lance. Thank you. Dr. Sweatman, during the safety pilot 
cars were retrofitted with DSRC devices, even though the 
devices were not a part of the vehicle's original equipment.
    Mr. Sweatman. Um-hum.
    Mr. Lance. Throughout testing did you observe vehicle make 
or model affecting its ability to use V2V technology, based 
upon the make or model?
    Mr. Sweatman. Thank you, Mr. Vice Chairman. We didn't. We--
so we had about 2 \1/2\ thousand vehicles from volunteers, who 
were parents in the Ann Arbor public school system, or working 
for the University of Michigan hospital, for example. And--so 
we--while there was some consideration to the makes and models 
of the vehicles that we accepted into that program, it was 
pretty broad, so it covered all the major makes.
    And we--so we fitted the aftermarket technology, and we 
didn't notice any difference between the makes of vehicles when 
it came to the effectiveness. One of the things we were very 
interested in was the reliability over time. So we have been 
running now--those vehicles for 3 years. A lot of them have 
been running for 3 years, so we also feel that the reliability 
is pretty good.
    Mr. Lance. Thank you very much, and I yield back the 
remainder of my time, and I recognize the Ranking Member, Ms. 
Schakowsky.
    Ms. Schakowsky. Thank you, Mr. Chairman. Recent 
investigations by ``60 Minutes''--this is directed to you, Mr. 
Beuse--have, and Consumer Reports have demonstrated that the 
threat of hacker accessing and controlling a connected car is 
real. In these reports, after vehicles have been accessed 
remotely, drivers are shown losing control of the horn, the 
brakes, steering wheel, windshield wipers, and more. And even 
though these videos were filmed in controlled environments, 
they highlight the potential dangers that are connected with--
from hackers.
    So I wanted to know how real is the threat of vehicle 
hacking generally, not just with regard to V2V. Do you expect 
the nature of the threat to evolve as technology develops?
    Mr. Beuse. We agree that cybersecurity is something that we 
all need to pay attention to. We actually have a very 
comprehensive program at the agency looking at all--at a layer 
of protection for vehicles. Harden the vehicle against attacks 
first. If an attack happens, what is the vehicle supposed to 
do? You know, store the attack, study it for later. And also to 
make sure that people are using the kind of latest and greatest 
in terms of protection, and then have a way to feed back into 
the system, such that, if an event happens, we understand why 
it happens, and we can understand whether the protocols that we 
had in place actually were effective or not.
    On the V2V side, it actually has its own unique set of 
security system, both inside the security management system 
that is responsible for giving credentials, but also in terms 
of how that communicates with the vehicle.
    Ms. Schakowsky. So has NHTSA been evaluating this threat of 
vehicle hacking in this V2V space, or more generally regarding 
connected cars? I mean, it is one thing to say the driver 
should do everything he or she can to protect the--so that they 
can protect themselves, but what exactly is NHTSA doing?
    Mr. Beuse. We are doing a couple things. The Consumer 
Reports piece that you mentioned was actually filmed at our 
facility. We have been doing this kind of work before it became 
kind of in the news, right? It is on the ways that--we get a 
vehicle to do some things when we want to evaluate the upper 
limits of performance.
    What we are doing right now is kind of a four pronged 
approach. One is making sure that there is kind of common 
understanding in the industry. One of the ways that we are 
doing that is advocating for the formation of an ISAC, an 
Information, Security Analysis--if there is an event on a 
vehicle that manufacturers can share that information with each 
other in nearly real time and help develop solutions. On the 
vehicle side, we are looking at countermeasures, what I call 
countermeasures, things--how to harden the vehicle.
    So, in a simple way, let us say an attacker is trying to 
gain access to the vehicle. Well, one of the things we want to 
look at is, even if you hard the vehicle initially, the vehicle 
has to be smart enough that it is being kind of--trying to get 
attacked. And so we are looking algorithms that can detect that 
event, and then take some appropriate action. Should the 
vehicle go into failsafe, should it take some other action to 
make it not seem like the vehicle is going out of control into 
a brick wall, which is everybody's fear?
    The other thing we are looking at is best practices and 
standards. One of the things with cybersecurity is that is an 
involving area, and it is one that may have to lend itself to 
more of a best practices approach versus more of a regulatory 
follow this rule, because the rulemaking process does take 
time, but best practices are something you can update pretty 
quickly. And when we are looking at that, we are looking at 
FDA, FAA, and across Government about how other people are 
dealing with cyber security issues, and it seems to be that is 
the way that they are going.
    Ms. Schakowsky. So--explained that the DSRC technology we 
are discussing today does not go over the Internet, it is not 
stored in the cloud, so it isn't at risk for hacking or 
snooping. However, since most cars contain other electronic 
systems, like my new car does, does DSRC talk to those systems, 
and thus make DSCR communications vulnerable, in fact?
    Mr. Beuse. Thank you for that question, because that is one 
of the things I should have clarified in my previous response. 
One of the things we are also looking at is separation of 
functions. So should the radio talk to the brakes? And one of 
the ways we are going to look at that is should there be 
absolute separation, or is there a way that you can have them 
communicate, but it is through a very controlled gateway? And 
so we are very much looking at that. Now that gets integrated 
into the vehicle is something we are actively talking with the 
manufacturers about. Because right now there is not kind of a 
harmonious approach to that.
    We recognize that, and so we are doing the research now to 
determine is there a best way to do this? And the science is 
evolving. I mean, many of the gatekeepers that they have put on 
vehicles may or may not be effective, and that is one of the 
things we are looking at.
    Ms. Schakowsky. Thank you for that, and I yield back.
    Mr. Burgess. The Chair thanks the gentlelady. The Chair 
recognizes the gentleman from Texas, Mr. Olson. 5 minutes for 
questions, please.
    Mr. Olson. I thank the Chairman for holding this very 
important hearing, and welcome to all of our witnesses. A few 
comments before my questions. As a former Naval aviator, I know 
about a system that is like V2V and V2I in aviation. It is 
called TCAS, for Traffic Collision Avoidance System. It tells 
aircraft on a collision course--that course, and B, suggests 
maneuvers to avoid a collision. It has been online for 21 years 
now. Last year, on April 4, it avoided a collision 200 miles 
west of Oahu, way out in the Pacific Ocean, out of range of 
radars. The system said collision avoidance, the plan pulled 
up, missed the collision. They saved lives. V2V and V2I 
promises to do the same thing with cars. And no one in the 
world wants V2V and V2I to work more than I do, because my life 
changed forever because of a car crash.
    April 1, 1990, Polashis, Texas, my wife and I were hit head 
on by another vehicle. Three people in that vehicle died. My 
first wife, Ellen, died as well. We had been married for less 
than 3 months. V2V and V2I have the promise to keep people from 
going through what I went through in 1990. I want these systems 
to work. But I am concerned that there may be some derailments 
in the future, particularly with lawyers and lawsuits.
    So my first question is for you, Mr. Beuse. Have you 
considered liability in a crash? I mean, is it the 
manufacturer, the driver, the V2V, the V2I system? Has that 
been in your computations going forward here, sir?
    Mr. Beuse. In the ANPRM we explored that issue very 
thoroughly, and actually asked comment on it. From our 
perspective, since this is a warning system, the current 
liability that exists now on current vehicles is the same. This 
system doesn't add any new liabilities. We are still exploring 
the security credentialing management side of the equation, but 
there again, we don't think that that is a big issue.
    Mr. Olson. And--comment on liability and concerns about 
something popping up in the future that may derail this because 
you are held liable for the V2V, the V2I system being involved 
in an actual crash--any comments? I know--maybe--expertise. 
Going once, going twice, OK, let us move on.
    Another question, Mr. Beuse. You guys do a great job--every 
year you put out these safety standards for our vehicles, the 
gold standard, but for safety it is about active safety. You 
know, it is all about barriers, poles, impactors. Have you ever 
thought about considering passive safety mechanisms, like V2V, 
V2I is that--in the future, put that in rating systems? Add 
that, make it more safe, so people know what the vehicle can do 
to protect them? Instead of just collision, but--hey, guy is 
coming at you, veer off here.
    Mr. Beuse. Yes. We are actually the first program to put 
crash avoidance technologies into a consumer information 
program. We did that when we did forward crash warning and lane 
departure warning. This year we announced a step to do more 
active safety, and announced that we were going to put 
automatic emergency braking into the program, and we are close 
to making a final decision on that. So we are very much focused 
on that. I can tell you the development of test procedures is a 
lot more difficult than it used to be because of these systems, 
but it is well worth the challenge, given their life saving 
potential.
    Mr. Olson. And, Mr. Lightsey, would GM, as a manufacturer, 
like that on the side of the car? Hey, we have this vehicle--
this device in our car. It is a safe car, protect you from a 
collision. Any concerns about that?
    Mr. Lightsey. No. I think the more we can inform the 
customer, the better off we are going to be. I think--of 
course, our customer is our highest--one of our highest 
priorities, and we want them to have the best experience that 
they possibly can.
    Mr. Olson. Thank you, and one further question. And this 
one is for you, for GM. What do you think will be the life 
cycle costs of V2V and V2I in GM vehicles over time? Will that 
be a big cost, a small cost, no cost? Any idea what the costs 
will be over time?
    Mr. Lightsey. Well, we plan for the V2V to be standard 
equipment on the Cadillac CTS model year set 2017, so the 
customer won't see that as any cost. We look for the cost of 
the hardware to come down. As was indicated by the other 
witnesses here, it is not a significant cost, even at the 
beginning of the early rollout, but we certainly expect, as 
production ramps up, for those costs to come even--to even 
lower levels.
    Mr. Olson. Thank you--I am out of my time. Yield back.
    Mr. Burgess. The Chair thanks the gentleman. The gentleman 
yields back. The Chair recognizes Mr. Cardenas from California. 
5 minutes for your questions, please.
    Mr. Cardenas. Thank you very much, Mr. Chairman. I 
appreciate the opportunity for--to be reminded about how 
serious and how personal these issues are, so thank you for 
sharing your testimony, Mr.--Congressman Olson.
    My first question to the panel is how many of you are 
engineers or scientists? OK. All right. There are a few of us 
in the room. The reason why I ask that question is because I 
just saw a movie on the plane where it was the scientist who 
was the good guy, and it was the non-scientist who was the bad 
guy when it came to, you know, robotics. And in that movie it 
had to do with robots becoming police officers and stuff, but 
anyway--so I just thought I would throw that out there.
    23 million connected vehicles were on the roads worldwide 
in 2013. That number is expected to surpass 150 million within 
the next 5 years. Today each connected car contains about 100 
million lines of code, a number that could triple in the coming 
years. Given the scale and complexity of this market, the rapid 
expansion of this technology presents a host of new 
technological challenges.
    Mr. Beuse, a consumer streaming a movie at home may be able 
to wait for a video to load, but they can't avoid delays when 
two cars are rapidly approaching and attempting to communicate 
with each other. So what is NHTSA doing to ensure that the V2V 
standard guarantees zero latency, zero delays?
    Mr. Beuse. That is a very important issue. The entire body 
of research that has been done today assumes that there is no 
interference in that spectrum band. Obviously, if that changes, 
then we are going to have to re-look at where we are, because 
our job is safety, and our job is to make sure that consumers 
get that safety that has been promised. And if, for some 
reason, the message is delayed, or not even received at all, 
and that leads to a crash, then that is not going to be a good 
situation for anybody. And so one of the things we are looking 
at is how much interference in that band can you tolerate? 
Again, the whole body of work, though, today has been done 
assuming no interference.
    Mr. Cardenas. OK. Mr. Beuse, how will NHTSA ensure that 
different manufacturers' connected car technologies are 
compatible with each other, and can interact automatically, and 
without delays?
    Mr. Beuse. One of the great things about this program is 
that we have been working collaborative with the manufacturers, 
with suppliers, and even across the globe. And one of the 
things right now is the U.S. is kind of leading the--kind of 
the worldwide deployment of DSRC. And what comes with that is 
standardized protocols for the communication, so we are working 
with voluntary consensus groups to make sure that those 
standards are done in a way that, if they--people use them, and 
if we codify them in a regulation, that we will have 
interoperable communications not only between vehicles here in 
the U.S., but vehicles in Europe, and vehicles in Japan.
    Mr. Cardenas. OK. Then, sir--Mr. Einsig, how has the 
Dedicated Short Range Communications technology on the V2V 
technology depend--been deployed successfully elsewhere?
    Mr. Einsig. So there are a number of test beds going on 
around the world. Some that we are aware of are in Austria, as 
well as in the Netherlands. Many countries are looking at this 
to differentiate themselves from a safety and from a quality of 
life perspective.
    Mr. Cardenas. Um-hum. And who is overseeing the results or 
the validity of those results in those other test cases?
    Mr. Einsig. I really couldn't comment too far. It is really 
country by country.
    Mr. Cardenas. The reason why I ask that question is 
because, for example, how many people at the witness people are 
working for Government, and how many are working for--
Government, one? Private industry? And university, so you are 
kind of neither. OK. The reason why I wanted to point that out 
is because I wouldn't want--ever want to see Hollywood play out 
in real life, where profits, or those motives, override the 
objective of making sure that we are as safe as possible, as 
safe as possible.
    And I can't pass up the opportunity, Mr. Chairman, to 
remind the American public who might be viewing this, or 
individuals who might be--feel this is an important issue to 
pay attention to, is that when we talk about getting rid of 
Government, when we talk about Government being bad, this is a 
perfect example where, no offense to private industry, we need 
to have that balance. We need to have certifications. We need 
to have some checks and balance, where we know that when 
something comes to market, nothing is ever perfect to the 
degree that we would all like it to be, but it is as good as 
humanly possible.
    And those of us who are scientists, you learn as a freshman 
the number one cause of error in any system is the human being. 
If systems were 100 percent automated, and human beings didn't 
touch it, that is about as perfect as you can get, and I just 
want to say thank you for those of you who are involved in 
making sure that we welcome those checks and balances, and we 
understand that we need to live with them.
    Thank you very much, Mr. Chairman. I yield back the balance 
of my time.
    Mr. Burgess. The gentleman yields back. The Chair thanks 
the gentleman. The Chair recognizes the gentlelady from 
Indiana, Mrs. Brooks. 5 minutes for questions, please.
    Mrs. Brooks. Thank you, Mr. Chairman. I am from--I 
represent Indianapolis, Indiana and counties to the north, and 
when I tell colleagues in Congress that I am from Indianapolis, 
or I represent Indianapolis, everyone thinks of one thing, the 
Indianapolis Motor Speedway, and cars, and automobiles, and 
trucks. And rightfully so, because automobiles, and the auto 
industry, and auto racing, have helped define who Indiana who, 
our Hoosier identity, and a good portion of our economy, 
actually. And certainly with respect to the greatest spectacle 
in racing, the Indianapolis 500, much innovation comes from the 
500, and so we have--and Indiana actually enjoys the fourth 
highest number of vehicle miles traveled per capita. So we love 
our cars and trucks in Indiana.
    And so it only makes sense that automobile companies, like 
yours, Mr. Lightsey, have either started in Indiana or have 
grown recently, and house a large portion of your truck and car 
business. And we have become--Indiana actually has become the 
second biggest State in terms of automotive GDP, and we are the 
crossroads of America, with more than $500 billion of freight 
moving through our State on our highway systems.
    So I know and believe in our burgeoning technologies, and 
it is--important, in fact, the Indiana Department of 
Transportation already has plans in the works that will allow 
INDOT to utilize vehicle to infrastructure technology to design 
better snow routs and decrease congestion. And NHTSA, 
obviously, has estimated that it could save 1,100 lives every 
year with this vehicle to vehicle technology.
    But I am very concerned--having served on Homeland 
Security, having been a former United States Attorney, I am 
very concerned about security. And actually, as you probably 
know, in February ``60 Minutes'' did an episode on hackers with 
respect to this technology, and I understand part of that has 
been addressed a bit at this hearing, but I want to talk a 
little bit more about those vulnerabilities. And, as colleagues 
have mentioned, it is our role, and NHTSA's role, to ensure 
that the technology is the safest it can possibly be. And so we 
need to ensure that it will save lives, rather than, you know, 
those who have ulterior motives affecting this technology.
    So, Dr. Sweatman, I am curious, did the safety pilot test 
the security of the vehicle to--V2V system, and what were the 
results, and what were the vulnerabilities that were detected?
    Mr. Sweatman. Thank you. So the safety pilot used the 
prototype security system that was developed by the U.S. 
Department of Transportation. So we implemented that, and that 
was a system that--where the vehicles were all loaded with 
certificates, and the system played out the way it was supposed 
to. So we didn't have any security issues in the 3 years--we 
are still operating the test environment in Ann Arbor.
    So we have not had any security breaches during that time, 
but we--now there is a new security system which is being 
developed by USDOT, and so we are about to implement that in 
the Ann Arbor test environment. So that will elevate the 
protection in the system, but we haven't had any problems with 
the system we started with.
    Mrs. Brooks. And I know there have been some questions with 
respect to hacking, but, Mr. Lightsey, can you talk with 
respect--from General Motors' perspective, how vulnerable are 
the cars, are automobiles to the hacking or privacy intrusions, 
and will that vulnerability, if it exists, increase the 
implementation? How will it affect the implementation of this 
technology in our vehicles?
    Mr. Lightsey. Thank you very much. Yes, well, speaking on 
behalf of GM, and on behalf of the industry, we take cyber 
security very seriously. It is certainly something that we are 
very aware of, and have devoted a lot of resources to that end. 
We created, in General Motors, just late last year, an 
organization under a chief product--cyber security officer that 
is responsible for end to end cyber security of our vehicles, 
all the way through the telecommunications networks and to the 
back office systems. And they are constantly working to make 
our systems better.
    As noted earlier, it is a very dynamic area. It changes on 
a very rapid basis, but we try to stay abreast of it as best we 
can. And we have a lot of resources devoted to that. I will say 
that earlier in the week we committed to be a charter member of 
the auto industry ISAC that Mr. Beuse referenced earlier. So we 
look forward to that. I think that will increase communication 
amongst all the participants in the industry and make us all 
more aware of what threats are out there, and therefore are 
able to deal with them better. Thank you.
    Mrs. Brooks. I think as Americans continue to be concerned 
about the extensive amount of hacking happening in all systems, 
this is yet something else we need to make sure the resource's 
intention is given, so thank you. I yield back.
    Mr. Burgess. The Chair thanks the gentlelady. The 
gentlelady yields back. The Chair is going to recognize the 
Ranking Member for a brief series of follow up, following which 
I will recognize myself for the same. So the gentlelady from 
Illinois is recognized.
    Ms. Schakowsky. Thank you, Mr. Chairman. I would like to 
first apologize to three of the witnesses. I am sorry that we 
have so many things at one time that I didn't hear. This 
question is for Mr. Beuse and for Mr. Lightsey, and that is 
regarding the timeline for automakers to integrate these kinds 
of technologies into the vehicles that are available.
    So GM's announcement that its Cadillac CTS will be V2V 
enabled starting in model year 2017 is a positive sign for the 
technology, but an effective V2V communication system cannot 
simply be Cadillacs communicating to Cadillacs. So first, Mr. 
Beuse, how many vehicles does NHTSA estimate must be equipped 
with V2V communications systems to see really--to see safety 
benefits? Is there some sort of critical mass?
    Mr. Beuse. Yes, there--vehicles can start to see benefits 
day one. I think, in our analysis that we did, rather than give 
you a model, you know, a number of vehicles, maybe it is better 
to think about it in terms of years. So basically 3 years after 
a final rule, in our analysis we showed you start to see 
benefits. And the reason why I mentioned you could see benefits 
day one is because in certain cities you might have a scenario 
where there are more new vehicles there than other places, and 
they might start to see some benefits. But on a critical mass, 
it is--it happens pretty quickly.
    I think the unique thing here is the aftermarket that 
will--we are not sure yet what role that will play, but that 
also has a potential to dramatically reduce how long we see 
benefits starting to occur.
    Ms. Schakowsky. The average car on the highway right now is 
12 years old, so it just seems to me--well, are there any 
considerations for offering incentives for current car owners 
to purchase aftermarket DSRC technology?
    Mr. Beuse. That is a little bit out of NHTSA's purview.
    Ms. Schakowsky. OK.
    Mr. Beuse. There was been, I think, some discussion before 
about that in the Congress on a variety of factors about crash 
avoidance technologies in general, but right now there is not a 
capability for NHTSA to give consumers some sort of money for 
crash avoidance technologies.
    Ms. Schakowsky. OK. Mr. Lightsey?
    Mr. Lightsey. Yes, thank you, Ranking Member Schakowsky. 
Yes, so this is a unique technology in that it is 
collaborative. And, as you indicated, our cars have to be able 
to talk to other cars to realize the benefits of the 
technology, and also to be able to talk to the infrastructure.
    As Mr. Beuse indicated, you know, you can start to see 
benefits day one, if you are in the right place, and you are 
encountering other folks with the technology. But we also know 
that the American public has shown a tremendous ability to 
adapt--adopt any technology very quickly if it sees a benefit. 
And I come from the telecom industry, and I spent 25 years in 
that industry during a time of very dynamic change, and I saw a 
very incredibly quick shift of the ability of the public to 
take up, like, a smartphone technology. I will assure you, I 
was AT&T in 2007 when we rolled out the iPhone, and nobody at 
AT&T or at Apple I think envisioned how quickly that technology 
would spread, and how pervasive it could become.
    So we are very encouraged. We know that other automakers 
have made plans, and will be rolling out plans to deploy this 
technology. We are encouraged by that, as Mr. Beuse indicated. 
We also believe that there is a tremendous potential for an 
aftermarket for this technology to spread very quickly.
    Ms. Schakowsky. Thank you, and I yield back.
    Mr. Burgess. The gentlelady yields back. The Chair thanks 
the gentlelady. The Chair recognizes the gentleman from 
Oklahoma for 5 minutes for your questions, please.
    Mr. Mullin. Thank you, Mr. Chairman, and thank you guys for 
being here. It is, you know, technology, sometimes you just 
want to reach back and scratch your head and think, where does 
it end? And I don't think it does. Personally, I like the feel 
of driving the car, and the responsibility that comes with it, 
but I understand the technology is moving rapidly, and we need 
to embrace it. In any successful industry you have to embrace 
the technology. And so thank you for enlightening us. I am not 
saying I understand it, I don't, but I really appreciate you 
being here. Mr. Beuse, are--do you know if the State DOTs are 
playing any role in this?
    Mr. Beuse. The State DOTs are playing a huge role, and 
there are certain States that are forward leaning more than 
others who have been following the development of this 
technology, and are anxiously waiting for us to get on with the 
business of standardizing the protocols and communications so 
they can start making plans to deploy the technology in real 
time. Mr. Sweatman mentioned that the State of Michigan, and 
Ann Arbor in particular, are already deploying V2I 
infrastructure. The GM announcement, part of that was also on 
the corridor, on the highway corridor, that they plan to deploy 
some vehicle to infrastructure technology. So it is happening. 
States kind of do their planning, their looking at it. And also 
what has happened is the association--ASHTO has actually 
already put out--I wouldn't call it a road map, but how States 
can make plans to deploy this technology.
    Mr. Mullin. Is there any concern about it being a 
distraction to the driver, or becoming where they are more 
dependent on it? I mean, I say that because I recently bought 
my wife a new vehicle, and it honestly scared me when I got 
into it because I got a little too close to the lane, and my 
seat vibrated. And I was kind of shocked, but then you start 
looking around at all your instrument panels, and you are 
trying to figure out what just happened, I realized there is a 
button up there I have got to push to keep my seat from 
vibrating. Not that it bothered me that much, but there is so 
much going on in a car now that--is there concern about people 
being very dependent on the technology keeping them safe, where 
they are not actually focusing and doing it themselves?
    Mr. Beuse. Certainly we want drivers to do the driving 
task. The information that is coming in through the V2V, in 
terms of the display, it is kind of invisible to the driver. 
What the driver will receive, it will be a warning, and it is 
not going to be a separate warning from what they receive now, 
let us say from a forward crash warning, would just be 
integrated into that same warning interface for the driver.
    On the distraction side, yes, we are very much concerned 
about distraction. Last year we put out some guidelines for the 
manufacturers to kind of provide a box of innovation for them 
to design these systems a little bit better for the consumer to 
kind of reduce that rest.
    We have not seen where consumers are becoming totally 
dependent on these crash avoidance technologies. The technology 
you mentioned is more of a lane departure warning, and yes, it 
kind of goes off--you experience it quite a bit. Some of the 
ones we are talking----
    Mr. Mullin. No, I am a good driver. I don't--I just 
happened to----
    Mr. Beuse [continuing]. Didn't mean to imply you or your 
wife are a bad driver.
    Mr. Mullin. Well, she is. No, I am kidding. Babe, I love 
you, I am just kidding.
    Mr. Beuse. You do experience that technology quite a bit. I 
have that same technology as well. But some of these others 
ones, like forward crash warning, automatic emergency----
    Mr. Mullin. Um-hum.
    Mr. Beuse [continuing]. Braking, this intersection movement 
stuff, it is--you are in a crash, you don't want to experience 
that ever again.
    Mr. Mullin. Sure.
    Mr. Beuse. And so----
    Mr. Mullin. Been there.
    Mr. Beuse [continuing]. The reliance, we just haven't seen 
it on some of these really advanced crash avoidance systems.
    Mr. Mullin. What about the cost to the States? Is--you 
mentioned Michigan is deploying some of this. Where is the 
money coming from?
    Mr. Beuse. Well, we might have to ask the--maybe Mr. 
Sweatman, if he knows where they are getting the money from.
    Mr. Mullin. Mr. Sweatman, do you want to take that?
    Mr. Sweatman. Sure. Let me say first that, you know, in Ann 
Arbor, the deployment we did, for equipping--for putting the 
infrastructure out throughout the city of Ann Arbor it is about 
a million dollars. So if we assume a certain number of equipped 
vehicles in the city of Ann Arbor, which is a city of 140,000 
people, that works out equivalent of about $90 per vehicle.
    Mr. Mullin. Here is my concern with this is--Dr. Sweatman, 
we see technology change so fast. I mean, Mr. Lightsey, you 
mentioned the iPhone. I mean, I am on my sixth one--or fifth 
one, I am losing count. But there--the technology changes all 
the time. And you see the stakes, and make this investment, 
then the technology changes, is the technology going to be 
adoptable as the technology increases? Because obviously, once 
we go live, there are going to be all types of improvements 
that are going to be needed, and there are going to be ways 
that we could make it better.
    Mr. Sweatman. So as far as the wireless communication is 
concerned, that is standardized, and has been for quite a few 
years. So the so-called DSRC is standardized, that is not going 
to change. So it is not like bringing out a new iPhone every 6 
months----
    Mr. Mullin. OK.
    Mr. Sweatman [continuing]. Or something. The underlying 
principles will remain the same.
    Mr. Mullin. OK. Thank you. That does answer my question. 
Thank you so much, and, Mr. Chairman, I yield back.
    Mr. Burgess. The Chair thanks the gentleman. The Chair is 
going to recognize himself for a brief series of follow-up 
questions. And Mr. Olson is no longer here. I do want to thank 
him for sharing a very personal story with us. Mr. Mullin, with 
his experience with lane departure, reminded me that my son, 
when he was 20 years old, and a young airman stationed at 
Clovis, New Mexico, and burned the candle at both ends, fell 
asleep at the wheel one night way out in west Texas. And I got 
that call that, you know, you just always dread as a parent 
getting. Dad, I fell asleep, I ran off the road, I don't know 
where I am, and the airbag went off and I can't drive the car. 
I said, well, stay where you are, I will come get you. But boy, 
wouldn't it have been great to have had something that would 
have perhaps allowed him to avoid that accident. And it just 
really came home to me as I was hearing the discussion today.
    Also occurred to me--and Mr. St. Amant and Mr. Einsig, let 
me just ask you, because you are probably the ones who would be 
closest to this, but--I am a physician by trade. I spent a lot 
of time working in emergency rooms when I was a resident, 
working big city emergency rooms at Parkland, and boy, we had 
telemetry, and we had phones, but when you go out into rural 
Texas, you don't have much. And somebody loads up and comes in, 
you don't even know they are on the way, let alone any of the 
data about their accident. But now it seems to me that the 
possibility is there, that there could be the transference of a 
great deal of data to a receiving facility after there has been 
an automobile accident.
    Now, obviously, your goal is to avoid any accidents, but if 
one does occur, you know, we were always left with some pretty 
rudimentary tools. Did you hit your head? I don't remember. Did 
you lose consciousness? I don't remember. And, in fact, it 
became a useful historical note to know that an airbag had 
deployed. That kind of gave you an idea of how much kinetic 
energy had to be absorbed in that accident. So what do you 
think, in the years to come is there going to be a way of 
transference of that amount of information to a receiving 
facility, and what are some of the kind of safeguards we have 
to think about surrounding that? So who else--Mr. St. Amant and 
Mr. Einsig, I would be interested in your responses.
    Mr. St. Amant. Thank you for the question. There has been a 
lot of work going on to understand how this technology can 
beast be--can best be deployed in rural areas, and there is a 
lot of research work. Part of it is being done in Michigan, and 
other places as well, where we are testing these and using 
cellular as a means to get that done. So we are--we know that 
we have to address that rural area. It can't just be in the 
more urbanized areas.
    Mr. Lightsey. Yes, thank you, Mr. Chairman. So GM has been 
a leader in this area. We have had OnStar on our vehicles, 
standard on all of our vehicles, for over 10 years now. And 
while that doesn't use DSRC technology, it does use cellular 
technology. We do provide emergency services. And, in fact, 
very recently we are working with the American College of 
Emergency Physicians under a grant to train them because we now 
have the capability, if our car is in a crash, to know from the 
sensors that are on the vehicle, airbag deployment, as you 
mentioned, whether the vehicle rolled over or not in the crash, 
and we can relay that information in real time to emergency 
responders, if they have the ability to receive it.
    So we are working with the American College of Emergency 
Physicians to do training so that they will be in the hospital, 
they will be ready to receive it. As you know, that first few 
minutes are the golden 10 minutes, and if you can make getting 
to the accident quicker, it can save lives. And if you can tell 
the folks that are on the way in the ambulance that--to expect 
serious injuries, that can help with their dispatch and what 
equipment they dispatch out there. It can have an incredible 
impact.
    Mr. Burgess. Very good. Mr. Einsig, did you have something 
to add?
    Mr. Einsig. I don't think I could have said it any more 
elegant. Thank you.
    Mr. Burgess. All right. Well, Mr. Lightsey, let me just ask 
you one last question. And I am going to ask you to look way 
over the horizon, but, you know, we hear these tragic stories 
of the child left in a car on a hot day in Texas, and it 
happens. And it is terrible when it happens, and frequently 
there is a loss of life. So is there anything over the horizon 
that would be able to detect human in the car, temperature 
reaching a point that is bad? Do you have anything on the 
drawing board that would look at that?
    Mr. Lightsey. I think we can talk also to Mr. Beuse about 
that, but I think the industry is working on several 
technologies that could help in those situations.
    Mr. Burgess. Very good. Mr. Beuse?
    Mr. Beuse. Sure. Hypothermia is a terrible, terrible thing. 
If you actually--as you know, how that--how you actually, you 
know, die in those events, it is a very, very traumatic event. 
And, as we know all too well, many of these cases are children 
who are kind of defenseless. We have been working the 
communications front on this issue for a few years, trying to 
raise awareness, and I am pleased to say I think we are making 
progress. The Alliance of Automobile Manufacturers did a survey 
not too long ago showing the difference of opinion. Before, 
people would walk by a vehicle and see a kid in the back seat 
and not think anything of it, and keep walking. These days, now 
people are more apt to call 911, or take some sort of action, 
so we are making progress. But there is still more to do.
    On the technology front, we are getting ready to release 
sometime this year test procedures. One of the things we saw 
happening is people having good intentions, developing all 
sorts of technologies, but missing the mark on how to make them 
safe. And so, given that that is in our name, we felt we could 
serve a role there, and--not necessarily prescribing particular 
technologies, but just say, hey, if you are going to develop a 
technology, these are some things you should look at, in 
particular with these devices. You know, things like--should 
probably be resistant to water. Why? If you have kids, you know 
that seats get wet, things like that. And so we are going to be 
producing that report here in the coming months, and we hope 
that that will help advance the science a little more on the 
technology front.
    Mr. Burgess. Thank you. I am encouraged by that. I want to 
thank all of our witnesses and our members today, as this has 
been a very instructive panel. We finished up right on time. 
That signal was the vote being called, so I achieved my goal of 
getting us through this before we had to have yet another 
interrupt. So, seeing no further members wishing to ask 
questions, I again want to thank all of our witnesses for 
participating in today's hearing.
    Pursuant to committee rules, I remind members they have 10 
business days to submit additional questions for the record, 
and I ask that the witnesses submit their responses within 10 
business days of receipt of the questions. And then, without 
objection, the subcommittee is adjourned.
    [Whereupon, at 12:14 p.m., the subcommittee was adjourned.]

                                 [all]
</pre></body></html>
